<html>
<title> - DISTRICT OF COLUMBIA PAIN-CAPABLE UNBORN CHILD PROTECTION ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                   DISTRICT OF COLUMBIA PAIN-CAPABLE 
                      UNBORN CHILD PROTECTION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION 
                           AND CIVIL JUSTICE

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1797

                               __________

                              MAY 23, 2013

                               __________

                           Serial No. 113-19

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://judiciary.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-175 PDF                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

           Subcommittee on the Constitution and Civil Justice

                    TRENT FRANKS, Arizona, Chairman

                    JIM JORDAN, Ohio, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa                     ROBERT C. ``BOBBY'' SCOTT, 
LOUIE GOHMERT, Texas                 Virginia
RON DeSANTIS, Florida                STEVE COHEN, Tennessee
[Vacant]                             TED DEUTCH, Florida

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director
















                            C O N T E N T S

                              ----------                              

                              MAY 23, 2013

                                                                   Page

                                THE BILL

H.R. 1797, the ``District of Columbia Pain-Capable Unborn Child 
  Protection Act''...............................................     4

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution and Civil Justice.................................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution and Civil Justice.................................    24
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    26
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    28

                               WITNESSES

Anthony Levatino, Obstetrics and Gynecology, Las Cruces, New 
  Mexico
  Oral Testimony.................................................    30
  Prepared Statement.............................................    33
Maureen L. Condic, Ph.D., Department of Neurobiology and Anatomy, 
  University of Utah School of Medicine
  Oral Testimony.................................................    36
  Prepared Statement.............................................    39
Christy Zink, Washington, DC
  Oral Testimony.................................................    47
  Prepared Statement.............................................    49
Jill L. Stanek, RN, Mokena, IL
  Oral Testimony.................................................    50
  Prepared Statement.............................................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution and Civil 
  Justice........................................................    61

 
     DISTRICT OF COLUMBIA PAIN-CAPABLE UNBORN CHILD PROTECTION ACT

                              ----------                              


                         THURSDAY, MAY 23, 2013

                        House of Representatives

                   Subcommittee on the Constitution 
                           and Civil Justice

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Trent 
Franks (Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Jordan, Goodlatte, Chabot, 
King, Gohmert, DeSantis, Nadler, and Conyers.
    Staff Present: (Majority) Paul Taylor, Majority Counsel; 
Sarah Vance, Clerk; (Minority) David Lachmann, Subcommittee 
Staff Director; and Veronica Eligan, Professional Staff Member.
    Mr. Franks. The Subcommittee on the Constitution and Civil 
Justice will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Thank you all for being here.
    I will now recognize myself for an opening statement.
    When innocent children are buried under the rubble caused 
by tornadoes or are shot by crazed monsters, evil monsters in 
schools or theaters, none of us consider that to be a partisan 
issue. Likewise, protecting pain-capable unborn babies is not a 
Republican issue or a Democrat issue. It is, rather, a test of 
our basic humanity and who we are as a human family.
    For the sake of all the Founding Fathers of this Nation 
once dreamed America could someday be and for the sake of all 
those since then who have died in darkness that we might all 
walk in the light of liberty, it is important for those of us 
who are privileged to be Members of Congress to pause from time 
to time and remind ourselves why we are really all here.
    Thomas Jefferson said the care of human life and its 
happiness, and not its destruction, is the chief and only 
object of good government. The phrase in the 14th Amendment and 
the Fifth Amendment capsulize our entire Constitution. No 
person shall be deprived of life, liberty, or property without 
due process of law.
    Ladies and gentlemen, protecting the lives of all Americans 
and their constitutional rights is why we are all here. The 
bedrock foundation of this republic is that clarion declaration 
of the self-evident truth that all human beings are created 
equal and endowed by their creator with uncertain unalienable 
rights, the rights of life and liberty and the pursuit of 
happiness.
    Every conflict and every battle our Nation has ever faced 
can be traced to our commitment to this core self-evident 
truth. It has made us the beacon of hope for the entire world. 
It is who we are.
    Yet today, a great conundrum looms before America. When 
authorities entered the clinic of Dr. Kermit Gosnell, they 
found a torture chamber for little babies that I do not have 
the words or the stomach to adequately describe. According to 
the grand jury report, Dr. Kermit Gosnell had a simple solution 
for unwanted babies. He simply killed them.
    He didn't call it that. He called it ``ensuring fetal 
demise.'' The way he ensured fetal demise was by sticking 
scissors in the back of the baby's neck and cutting the spinal 
cord. He called it snipping. Over the years, there were 
hundreds of snippings.
    Ashley Baldwin, one of Dr. Gosnell's employees, said she 
saw babies breathing. She described one as 2 feet long that no 
longer had eyes or a mouth, but in her words was like ``making 
this screeching noise, and it sounded like a little alien.'' 
And I just wonder, for God's sake, sometimes is this really who 
we are?
    If Dr. Gosnell had killed the children he now stands 
convicted of murdering only 5 minutes earlier and before they 
had passed through the birth canal, it would have all been 
perfectly legal in many of the United States of America. More 
than 325 late-term unborn babies are torturously killed without 
anesthesia every day in the land of the free and the home of 
the brave.
    If there is one thing that we must not miss about this 
unspeakably evil episode, it is that Kermit Gosnell is not an 
anomaly in this gruesome Fortune 500 enterprise of killing 
unborn children. Rather, Kermit Gosnell is actually the true 
face of abortion on demand in America, and every American with 
the slightest shred of compassion for the innocent should go to 
paincapable.com and learn the truth of this case and others 
like it for themselves.
    Not long ago, I heard Barack Obama speak very noble and 
poignant words that whether he knows it or not apply so 
profoundly to the real subject of this hearing. Let me quote 
excerpted portions of his comments.
    He said, ``This is our first task, caring for our children. 
It is our first job. If we don't get that right, we don't get 
anything right. That is how as a society we will be judged.''
    The President asked the question that so many of us have 
asked for such a long time on this issue. He asked it on 
another issue. He said, ``Are we really prepared to say that we 
are powerless in the face of such carnage, that the politics 
are too hard? Are we prepared to say that such violence visited 
on our children year after year after year is somehow the price 
of our freedom?''
    Again, that sounds exactly what many of us have said for so 
many years regarding the children we are discussing here today.
    The President also said, ``Our journey is not complete 
until all our children are cared for and cherished and always 
safe from harm. This is our generation's task,'' he said, ``to 
make these words, these rights, these values of life, liberty, 
and the pursuit of happiness real for every American.''
    Never have I so deeply agreed with any words ever spoken by 
President Obama as those I have just quoted. And yet in the 
most merciless distortion of logic and reason and humanity 
itself, this President refuses to apply these incontrovertible 
words to helpless victims like those of Dr. Kermit Gosnell.
    How I wish somehow that Mr. Obama would open his heart and 
his ears to his own words and ask himself in the core of his 
soul why his words that should apply to all children cannot 
include the most helpless and vulnerable of all children. He is 
their President, and they need him so desperately.
    And my friends on this Committee, those helpless children 
that we speak of today need all of us as well. Indeed, they are 
why we are all here.
    And with that in mind, I would like to end my opening 
statement with two short video clips taken from today's 
headlines. The first part is of the Live Action organization's 
undercover expose of the late-term abortion industry. It shows 
a late-term abortion counselor in my own State of Arizona 
advising a pregnant woman on the need to address the unborn 
child's pain.
    The second is part of a testimony delivered by the 
Philadelphia district attorney's office describing the horrors 
uncovered in Dr. Kermit Gosnell's late-term abortion clinic.
    So please go ahead.
    [Video shown.]
    [The bill, H.R. 1797, follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________

    Mr. Franks. I would now yield to the Ranking Member, Mr. 
Nadler from New York, for his opening statement.
    Mr. Nadler. Thank you, Mr. Chairman.
    We are back once again considering legislation that would 
curtail women's reproductive rights. I understand how 
personally important this is to some of my colleagues, and they 
are certainly entitled to their beliefs. But the many Americans 
who see the world very differently, including millions of women 
who value their personal autonomy, can be forgiven if this 
looks like just another battle in the Republican war on women.
    I accept that on this one we are going to have to agree to 
disagree. In this case, my colleagues appear, through the 
operation of the criminal code, to be trying to settle a 
scientific question on which there is no consensus within the 
field. That is an exercise of raw political power, not of 
dispassionate fact-finding.
    Some of the views we are going to hear today are, in fact, 
viewed by many scientists in the field as outliers, not as 
mainstream scientific thought. The fact that the majority has 
allowed two individuals to purport to present--to purport to 
present as clearly established science views that are clearly 
marginal in their fields will create a false and misleading 
record.
    The fact that the minority has been limited to only one 
witness demonstrates just what a farce these hearings are. Yes, 
I know we could have invited our own medical expert, but at the 
expense of hearing from an actual woman who can provide a real-
world look at the impact this legislation will have on real 
families. We could not do both.
    The bill, as introduced, would prohibit nearly all 
abortions beginning at 20 weeks. That, as every first-year law 
student knows, is facially unconstitutional.
    Just this week, the U.S. Court of Appeals for the Ninth 
Circuit struck down a similar Arizona statute, saying, ``Since 
Roe v. Wade, the Supreme Court case law concerning the 
constitutional protection accorded women with the respect to 
the decision whether to undergo an abortion has been 
unalterably clear regarding one basic point. A woman has a 
constitutional right to choose to terminate her pregnancy 
before the fetus is viable. A prohibition on the exercise of 
that right is, per se, unconstitutional.''
    That, of course, is what this bill would do, and voting for 
it would violate our oaths to uphold the Constitution. 
Nonetheless, despite that, this bill would prohibit nearly all 
abortions, including those involving threats to a woman's 
health and in cases of rape or incest and where the woman may 
have become suicidal.
    Exceptions to protect the woman where her life and health 
are at risk, as is not included in this bill, are required 
throughout pregnancy, even post viability, if the bill is to be 
constitutional. But such exceptions are not in this bill.
    I hope that in addition to the many statements of concern 
we will hear today for fetuses, we can also hear a few words of 
concern for women and their families. The bill, as introduced, 
would, as in the case in the last Congress, apply only to the 
residents of the District of Columbia. I understand from the 
Chairman's public statements that he intends to expand the 
bill, to amend it to apply to the entire country.
    While I had previously objected to the singling out of the 
people of the District of Columbia, who are, after all, 
taxpaying Americans who serve in our military, respond when one 
of us has an emergency requiring police, fire, or EMT services, 
and serve as congressional staff, I must now extend my 
objections on behalf of my constituents and on behalf of the 
women in the entire country.
    This legislation represents an extreme view of the abortion 
question and is at odds with the science. That is why people in 
many States have firmly rejected it, including the people I 
represent. Just as it is an outrage for Congress to impose its 
will on the people of the District of Columbia, in this case, 
so, too, I will fight any such usurpation of the rights of my 
constituents.
    I am not going to sit here and debate the question of fetal 
pain, except to note that even Dr. Anand, who was cited in the 
majority's witness testimony and hearing memo and who was 
called by the majority to testify before this Subcommittee in 
2005, told us, ``I think the evidence for and against fetal 
pain is very uncertain at the present time. There is consensus 
in the medical and scientific research community that there is 
no possibility of pain perception in the first trimester. There 
is uncertainty in the second trimester.''
    The Journal of the American Medical Association concluded 
that, ``Evidence regarding the capacity for fetal pain is 
limited but indicates that fetal perception of pain is unlikely 
before the third trimester.''
    The Royal Academy of Obstetricians and Gynecologists 
concluded, ``It can be concluded that the fetus cannot 
experience pain in any sense prior to 24 weeks gestation.''
    Are we really going to take sides in this scientific debate 
by jailing and bankrupting people who don't agree because we, 
as an all-knowing Committee of Congress, are going to decide 
what the science is? That is what this bill would do.
    Similarly, the claim that an abortion is never necessary to 
protect a woman's health is simply not one that is widely held 
in the medical profession, and the idea that we should be 
enshrining this marginal view into the criminal code defies 
reason. I hope that our medical witnesses will at least agree 
that a woman can become pregnant as a result of rape, something 
that some Members of this body seem to question.
    I find it deeply disturbing that when it comes to issues 
like this, some people think there is nothing wrong with making 
families in crisis have the courage of legislators' 
convictions. That is also wrong.
    I know that we will hear a lot about the Gosnell case 
today, and I would like to address it at the outset. Dr. 
Gosnell has been proven a criminal. He is going to jail, and 
deservedly so.
    Colleagues who were here at the time may recall that I 
actively supported passage of the Born-Alive Infants Protection 
Act--I think this was about 12 years ago--which made it a crime 
to kill an infant once it is born alive. As I said at the time, 
that was already illegal everywhere, and even if it was 
duplicated, we should support it now. I am confident that it 
was the right thing to do.
    What Dr. Gosnell did had nothing to do with abortion. It 
was murder and infanticide, pure and simple. That Born-Alive 
Infants Protection Act was not about abortion because it 
involved live births and affirmatively killing a newborn. It 
was about classic murder.
    Similarly, Dr. Gosnell's practice of snipping a newborn's 
spine following a live birth is indefensible, clearly murder, 
and obviously illegal. That is why he was convicted.
    What the Gosnell case does not illustrate, no matter how 
many times activists insist it should, is anything regarding 
the practice of abortion generally. The fact is that 40 years 
after Roe, it is hard to find another practitioner like Gosnell 
really--the fact that 40 years after Roe it is hard to find 
another practitioner like Gosnell really speaks to the actual 
state of that practice.
    I am sorry that some on the other side of this debate seem 
so gleeful that this has happened. It is a tragedy for these 
women, and it is a disgrace that any medical practitioner 
should have acted in such a manner.
    I would urge my colleagues to think about the extent to 
which he, Dr. Gosnell, represented the poor quality of 
healthcare services available in poorer communities. We should 
be working to make sure that high-quality healthcare is 
provided to the uninsured, to make sure that the full range of 
healthcare services, including family planning services, that 
are available to people with money are available to the poor 
and uninsured as well.
    If that means funding a Planned Parenthood clinic in every 
neighborhood to put guys like Gosnell out of business, so be 
it. If it means closer regulation of the medical profession, so 
be it. If it means an end to the constant efforts by my 
Republican colleagues to limit the rights of injured patients 
to sue, so be it.
    But let us not pretend that this is about the practice of 
abortion in America today. If it were, our prisons would be 
filled with Gosnells. I don't think the Chairman has stopped 
going to the dentist because one dentist in Oklahoma was found 
to have infected thousands of patients, and I don't think we 
should outlaw abortions because a bad actor committed crimes 
against his patients.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Franks. I thank the gentleman and would just suggest to 
him that there is no one on either side of this aisle that is 
gleeful about the actions of Dr. Kermit Gosnell.
    And I would yield now to the distinguished Chairman of the 
full Committee, Mr. Goodlatte from Virginia.
    Mr. Goodlatte. Thank you, Mr. Chairman. I very much 
appreciate your holding this hearing and for your leadership on 
this issue.
    Since the Supreme Court's controversial decision in Roe v. 
Wade in 1973, medical knowledge regarding the development of 
unborn babies and their capacities at various stages of growth 
has advanced dramatically. Even the New York Times has reported 
on the latest research on unborn pain, focusing in particular 
on the research of Dr. Sunny Anand, an Oxford-trained neonatal 
pediatrician who has held appointments at Harvard Medical 
School and other distinguished institutions.
    According to the New York Times, 25 years ago, doctors were 
convinced that newborns' nervous systems were too immature to 
sense pain. Anand resolved to find out if this was true.
    In a series of clinical trials, he demonstrated that 
operations performed under minimal or no anesthesia produced a 
massive stress response in newborn babies, releasing a flood of 
fight or flight hormones like adrenaline and cortisol. Potent 
anesthesia, he found, could significantly reduce this reaction. 
But Anand was not through with making observations. He noticed 
that even the most premature babies grimaced when pricked by a 
needle.
    New evidence, however, has persuaded him that fetuses can 
feel pain by 20 weeks gestation and possibly earlier. As Dr. 
Anand would later testify, ``If the fetus is beyond 20 weeks of 
gestation, I would assume that there will be pain caused to the 
fetus, and I believe it will be severe and excruciating pain.''
    Congress has the power to acknowledge these developments by 
enacting H.R. 1797 and prohibiting abortions after the point at 
which scientific evidence shows the unborn can feel pain with 
limited exceptions. The terrifying facts uncovered during the 
course of the trial of late-term abortionist Kermit Gosnell and 
successive reports of similar atrocities committed across the 
country remind us how an atmosphere of insensitivity can lead 
to horrific brutality.
    The grand jury report in the Gosnell case itself contains 
references to a neonatal expert who reported that the cutting 
of the spinal cords of babies intended to be late-term aborted 
would cause them, and I quote, ``a tremendous amount of pain.'' 
These facts justify expanding the application of this bill 
Nationwide, and I fully support Constitution Subcommittee 
Chairman Franks' intention to do so.
    Indeed, the Polling Company recently found that 64 percent 
of Americans would support a law such as the Pain-Capable 
Unborn Child Protection Act. Only 30 percent would oppose it. 
And supporters include 47 percent of those who identify 
themselves as pro choice in the poll.
    In the 2007 case of Gonzalez v. Carhart, the Supreme Court 
made clear that, and I quote, ``The Government may use its 
voice and its regulatory authority to show its profound respect 
for the life within the woman and that Congress may show such 
respect for the unborn through 'specific regulation' because it 
implicates additional ethical and moral concerns that justify a 
special prohibition.''
    Justice Kennedy, who wrote the majority opinion in the 
Carhart case, also wrote that the Government has ``an interest 
in forbidding medical procedures, which, in the Government's 
reasonable determination, might cause the medical profession or 
society as a whole to become insensitive, even disdainful to 
life, including life in the human fetus, even life which cannot 
survive without the assistance of others.''
    As the New York Times story concluded, throughout history, 
a presumed insensitivity to pain has been used to exclude some 
of humanity's privileges and protections. Over time, the 
charmed circle of those considered alive to pain and, 
therefore, fully human has widened to include members of other 
religions and races, the poor, the criminal, the mentally ill, 
and thanks to the work of Sunny Anand and others, the very 
young.
    The Gosnell trial reminds us that when newborn babies are 
cut with scissors, they whimper and cry and flinch from pain. 
But it takes only a moment's thought to realize that wherever 
babies are cut, they whimper and cry and flinch from pain. 
Delivered or not, babies are babies, and they can feel pain at 
20 weeks.
    It is time to welcome young children who can feel pain into 
the human family, and this bill at least will do just that. I 
congratulate Chairman Franks and yield back.
    Mr. Franks. And I thank the gentleman.
    And I will now yield to the Ranking Member of the 
Committee, Mr. Conyers from Michigan.
    Mr. Conyers. Thank you, sir.
    Ladies and gentlemen, it has been said by one of our 
esteemed Members of this Judiciary Committee that when Members 
of Congress attempt to play doctor, it is bad medicine for 
women, and that is what brings us here today.
    Could I just ask the ladies from Planned Parenthood that 
are in the audience, and we welcome everyone that is in this 
room, but could those women just stand up for a moment?
    Thank you. Thank you very much for coming.
    What I see us doing here this morning is undermining the 
basic reproductive rights of women by prohibiting any abortion 
after 20 weeks, with only limited exception and imposing 
criminal penalties, among other sanctions. This subject is an 
extremely difficult one because every pregnancy is unique and 
different.
    Some women, unfortunately, must face the emotionally 
devastating decisions in the course of their pregnancies that 
require them to consider abortion as a health option. But if 
this bill became law, Congress would be able to impose its will 
with respect to one of the greatest tragedies that these women 
and their families may ever endure by using the threat of 
prison and lawsuits to coerce them into making decisions that 
may be bad for their health, their families, and deny them 
essential medical care.
    Now the problem, of course, is this. Is that any attempt, 
as in 1793, to ban pre-viability abortions is patently 
unconstitutional under Roe v. Wade. It has been the law for 
more than 40 years, and even after viability, the court has 
required any abortion prohibition to include an exception to 
protect the woman's life and health, which this bill fails to 
do.
    It has already been mentioned that the Court of Appeals has 
struck down a similar attempt that is embodied in H.R. 1793 by 
saying since Roe v. Wade, the Supreme Court case law concerning 
the constitutional protection accorded women with respect to 
the decision whether to undergo an abortion has been 
unalterably clear regarding one basic point. A woman has a 
constitutional right to choose to terminate her pregnancy 
before the fetus is viable. A prohibition on the exercise of 
that right is, per se, unconstitutional.
    That very clearly identify the problem with this attempt in 
1793 before us today. And then, to add insult to injury, 1793 
explicitly states that a risk of suicide is insufficient cause 
to allow a woman to end a pregnancy.
    So, ladies and gentlemen, this is a sad day, and I know 
that there are other views. But when we have a measure this 
draconian that fails to include any exceptions for cases 
involving rape and incest, this, of course, would force a 
person to bear her abuser's child. So keep in mind that 25,000 
women in the United States become pregnant as a result of rape, 
and 30 percent of these rapes tragically involve women under 
the age of 18.
    And so, I thank the Chairman for allowing me to express my 
opinion on this measure.
    Mr. Franks. And I thank the gentleman, and I would just 
suggest for the record that, indeed, there is an exception to 
save the life of the mother in this. And any issues regarding 
rape or incest are usually dealt with before the beginning of 
the sixth month of pregnancy.
    And I would now----
    Mr. Nadler. Mr. Chairman, maybe I could speak out of order 
for a moment for 30 seconds?
    Mr. Franks. Sure.
    Mr. Nadler. Thank you, Mr. Chairman.
    I just wanted to clarify that in my opening remarks, I had 
no intention of suggesting that the Chairman or any Member of 
this panel was gleeful about the Gosnell case in any way.
    Mr. Franks. I sincerely appreciate that, Mr. Nadler.
    And I would now introduce our witnesses, would now welcome 
you here. I know that there is never anything easy about what 
you are doing today, but I am grateful to all of you here, and 
we are grateful to every last person in the audience as well 
for being here.
    And I will now introduce our witnesses. Now I will suggest 
to you that the Speaker failed to check with us when he 
scheduled votes. And so, I will introduce--I will be giving the 
introduction here, and then we will have to adjourn for a few 
moments, and we will go vote. And we will come back, and then 
we will hear your testimony.
    But thank you for your patience.
    Dr. Anthony Levatino is a board-certified obstetrician/
gynecologist. Over the course of his career, Dr. Levatino has 
practiced obstetrics and gynecology in both private and 
university settings, including as an associate professor of OB/
GYN at the Albany Medical College. And I thank you for being 
here, sir.
    Dr. Maureen Condic is an associate professor of 
neurobiology and an adjunct professor of pediatrics at the 
University of Utah School of Medicine. Dr. Condic is the 
director of human embryology for that medical school, and I 
thank you for being here.
    Ms. Christy Zink is a resident of Washington, D.C., and I 
thank you, Ms. Zink, for being here as well.
    Our final witness is Jill Stanek, a nurse turned speaker, 
columnist, and blogger, and a National figure in the effort to 
protect both preborn and post born innocent human life. And Ms. 
Stanek, I thank you for being here as well.
    And with that, we will recess and we will return, 
hopefully, in 25 to 30 minutes. And again, I apologize for the 
interruption.
    [Recess.]
    Mr. Franks. The Constitution Committee will come to order.
    I start out by telling you that it seems that we are going 
to have another vote in approximately an hour. So we are going 
to go ahead and get started as soon as possible, and I want to 
thank everyone again for their attendance.
    And I especially want to thank the witnesses for their 
presence here. I know each of you took great pains to be here.
    So each of your statements will be entered into the record 
in its entirety, and I will ask that each of you summarize your 
testimony in 5 minutes or less. To help you stay within that 
time, there is a timing light in front of you. The light will 
switch from green to yellow, indicating that you have 1 minute 
to conclude your testimony. When the light turns red, it 
indicates that the witness' 5 minutes have expired.
    And before I recognize the witnesses, it is the tradition 
of the Subcommittee that they be sworn. So if you would please 
stand to be sworn.
    [Witnesses sworn.]
    Mr. Franks. Please be seated. Let the record reflect that 
the witnesses answered in the affirmative.
    I now recognize our first witness, and please turn on your 
microphone, Dr. Levatino, and please proceed, sir.

 TESTIMONY OF ANTHONY LEVATINO, OBSTETRICS AND GYNECOLOGY, LAS 
                           CRUCES, NM

    Dr. Levatino. Good morning. Chairman Franks and 
distinguished Members of the Subcommittee, thank you for 
inviting me.
    My name is Anthony Levatino. I'm a board-certified 
obstetrician/gynecologist. I have served in both academic and 
clinical settings. Currently, I practice in Las Cruces, New 
Mexico.
    I've been a board--I've been an obstetrician/gynecologist 
for 33 years, and the early part of my career, I performed over 
1,200 abortions. Over 100 of them in the second trimester, up 
to 24 weeks of gestation.
    Imagine, if you can, that you're an obstetrician/
gynecologist and a pro-choice obstetrician/gynecologist like I 
was, and your patient today is 17 years old. She's 24 weeks 
pregnant from last period. Her uterus is two finger breadths 
above her umbilicus. She has been feeling her baby kick for 
over a month. She is asleep on an operating room table, and you 
are there to help her with her problem.
    The first thing you do is withdraw the laminaria that was 
placed in the cervix. The dilation of the cervix that's 
required for a D&E abortion at that level takes at least 36 
hours. Later abortions can--dilation of the cervix can 
necessitate almost 3 days of preparation prior to performance 
of the procedure.
    The first thing you are going to reach is for a suction 
catheter. This is a 14-French suction catheter. It's about 9, 
10 inches long. It's about \3/4\-inch in diameter. And picture 
yourself, if you can, placing this through the cervix and 
instructing your circulating nurse to turn on the suction 
machine.
    What you'll see is pale yellow fluid running through this 
into the suction bottles of the machine. That was the amniotic 
fluid that was there to protect the baby.
    If this was a first trimester abortion, when her child 
would be that size or smaller, you could essentially do the 
entire abortion with this one instrument. A 24-week baby that 
we're describing here from last period is the length of your 
hand and a half again from head to rump, not counting the legs. 
Babies that size don't fit through catheters this size.
    When you're done, reach for a Sopher clamp. This is one 
that I brought along so you could see what we're talking about. 
It's about 13 inches long. It's stainless steel.
    The business end on this clamp is about \1/2\-inch wide and 
about 2\1/2\ inches long. And there are rows of sharp teeth on 
this instrument. It's a grasping instrument. When it gets a 
hold of something, it does not let go.
    A second trimester abortion at that stage is a blind 
procedure. You can't really see anything. Everything has to be 
done by feel.
    Picture yourself, if you can, reaching in with this 
instrument and grasping blindly anything you can and pull hard. 
And when it finally pops free, out comes a leg that big, which 
you put down on the table next to you.
    Reach in with this again and grasp and pull hard. Out comes 
an arm about the same length, which you put down on the table 
next to you. And reach in with this instrument again and again 
and tear out the spine, the intestines, heart, and lungs.
    Head of a baby about that age is maybe the size of a large 
plum. Again, the procedure is blind. You reach in, being 
careful not to perforate the uterus, and you have a pretty good 
idea you have it, if you have your clamp around something and 
your fingers are spread about as far as they will go.
    You know you did it right if you crush down on the clamp, 
and white material runs out of the cervix. That was the baby's 
brains. Then you can pull out skull pieces. If you had a day 
like I had a lot of days, sometimes a face comes back and 
stares back at you.
    Congratulations, you just successfully performed a second 
trimester D&E abortion. You just affirmed her right to choose.
    These procedures are brutal by their nature. In later 
abortions, when you are preparing that cervix for even more 
extended periods of time, you can have situations where you 
will get into preterm labor or even precipitous deliveries of 
these children. The Gosnell situation is a situation that has, 
I think, brought to the public's attention what we're talking 
about when we're talking about this level of abortion.
    It was mentioned earlier that the idea that abortion is 
not--is needed to save women's lives is one that must be under 
consideration. As a faculty member at the Albany Medical 
College, I have treated hundreds of women with severe problems 
with their pregnancies. Pregnancies that were life-threatening 
to them. Cardiac disease, diabetes, cancers, toxemia, elevated 
blood pressure in pregnancy.
    I'll illustrate with one case that I dealt with personally. 
A patient came in at 27 weeks of gestation, blood pressure 220 
over 140. You know a normal blood pressure is 120 over 80. This 
woman is moments or hours away from a stroke.
    We stabilized her, delivered her. She had a healthy baby in 
the end, and she did well as well. But I was able to stabilize 
and deliver her within an hour because that was required when 
you have an emergency of that magnitude.
    Abortion would be worthless in that situation. As I told 
you, at 27 weeks of gestation, it would have taken at least 3 
days to even prepare her to be able to go through the 
procedure, and this is an important point when we talk about 
abortion in terms of saving women's lives.
    I appreciate your attention. I guess I'll just end, 
Chairman Franks quoted President Obama earlier. I'm going to 
quote him one more time.
    He said recently, ``If there is just one thing, one thing 
that we could do that would save just one child, don't we have 
an obligation to try?''
    Thank you.
    [The prepared statement of Dr. Levatino follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________

    Mr. Franks. Thank you, Dr. Levatino.
    And Dr. Condic, I will now recognize you for 5 minutes.
    We have some audio/visual? Yes, ma'am. And would you turn 
your mike on and pull that close to you, please?

     TESTIMONY OF MAUREEN L. CONDIC, Ph.D., DEPARTMENT OF 
NEUROBIOLOGY AND ANATOMY, UNIVERSITY OF UTAH SCHOOL OF MEDICINE

    Ms. Condic. Yes. Okay, can you hear me?
    Mr. Franks. Yes, ma'am.
    Ms. Condic. Great. Chairman Franks, Congressman Nadler, 
distinguished Members of the Subcommittee, I'm Dr. Maureen 
Condic, associate professor of neurobiology and adjunct 
professor of pediatrics at the University of Utah School of 
Medicine.
    I thank you for this opportunity to testify.
    [Slides.]
    Ms. Condic. So the experience of pain is obviously very 
complex. Here I have summarized the important events of brain 
development relevant to pain perception. The three points I'd 
like to emphasize are these.
    First, brain development begins very early, by 4 weeks post 
fertilization. Second, the neural circuitry underlying the most 
basic response to pain is in place by 8 weeks. This is the 
earliest point at which a fetus can feel pain at any--in any 
capacity. And finally, the circuitry in the thalamus that's 
primarily responsible for both fetal and adult pain perception 
develops between 12 and 18 weeks post fertilization.
    At this stage, a fetus is very well developed. All of the 
organs and structures are fully formed. She has a face, 
fingerprints, and based on my own experience with three 
pregnancies, a definite personality.
    The debate over fetal pain is not whether pain is detected 
by a fetus at 20 weeks. There is essentially universal 
agreement on this point in the scientific community. Rather, 
the debate concerns how pain is experienced, whether a fetus 
has the same pain experience as a newborn or an adult.
    Recently, the American College of Obstetricians and 
Gynecologists, or ACOG, the Royal College of Obstetricians and 
Gynecologists, and a review in the Journal of the American 
Medical Association have all addressed this point. Yet these 
reports have received serious scientific criticism.
    And surprisingly, they all assumed without evidence that 
for a fetus to have a conscious experience of pain, certain 
late-developing cortical structures must exist. Yet many 
conclusive modern lines of evidence contradict this view, and 
I'm going to present just two of them.
    First, it's clear that children born without cortical brain 
structures are capable of consciousness, including smiling when 
pleased, having preferences for particular kinds of music, and 
having adverse reactions to pain. Here is a picture of such a 
patient recognizing her physician.
    This little girl was described in this case report as being 
a very happy child who particularly liked dancing to rock 
music. Yet, well over 80 percent of her brain is missing, and 
therefore, she does not possess the structures that ACOG and 
others erroneously insist are required for conscious 
recognition of her physician, for example.
    This is a scan of the little girl's brain. The red star 
here indicates the limited area of the cortex that she 
possesses, and the yellow stars indicate empty space in the 
regions that ACOG and others claim the parts of the brain that 
are required for conscious pain perception should exist.
    The blue star indicates the position of the thalamus, which 
is the region of the brain that is, in fact, responsible for 
pain perception in this patient and in all human beings at all 
stages of life. And as I've noted, the pain perception 
circuitry in this region of the brain is in place by 18 weeks.
    So a second line of evidence against the conclusions of 
ACOG and others is the large body of direct experimental data 
from adult humans that demonstrates that neither removing nor 
stimulating the cortex changes our experience of pain, whereas 
stimulating or removing lower brain structures, such as the 
thalamus, does.
    So, for example, a recent study analyzed on videotape the 
behavioral responses of adult alert patients to 4,160 cortical 
stimulations, and the authors note that pain responses were 
very scarce, representing less than 1.5 percent of all the 
responses they observed. These authors then conclude that even 
for adult humans, in contrast to the JAMA report, the ACOG 
report, and the Royal Society reports that have been cited, the 
cortex is largely not involved in the conscious perception of 
pain. Pain perception is localized to the thalamus, and this 
circuitry is in place by 18 weeks post fertilization.
    In addition to the neurobiological information I have just 
presented, what we directly observe about a fetus's response to 
pain is also very clear. Fetuses delivered prematurely exhibit 
pain-related behaviors, such as those shown here. Pain response 
observations are very precise, and they're based on objective 
criteria.
    Strikingly, the earlier fetuses are delivered, the stronger 
their response to pain. And this is due to the absence of 
later-arising brain circuitry that actually inhibits a pain 
response in older infants and in adults.
    Similarly, fetuses at 20 weeks post fertilization have an 
increase in stress hormones in response to painful stimuli that 
can be eliminated by appropriate anesthesia, just as for an 
adult. These and many other direct observations of fetal 
behavior and physiology have resulted in a clear consensus 
among professional anesthesiologists that the use of anesthesia 
is warranted in cases of fetal surgery, not based on pragmatic 
considerations like the suppression of fetal movement but, 
rather, based primarily on the fetus's experience of pain.
    Finally, I'd like to conclude by saying we really must 
consider our own experience and ask what kind of a society we 
want to be. You know, we're all horrified by the pictures of 
the infants that were brutally killed by convicted murderer 
Kermit Gosnell, and yet we tolerate this same brutality and 
even worse for humans at 20 weeks of development.
    Imposing pain on any pain-capable living creature is 
cruelty, and ignoring the pain experienced by another human for 
any reason is barbaric. We don't need to know if a fetus 
experiences pain precisely in the same way we do. We simply 
have to decide whether we're going to choose to ignore the pain 
of the fetus or not.
    It is entirely uncontested in the scientific and medical 
literature that a fetus experiences pain in some capacity from 
as early as 8 weeks, and most modern neuroscientists conclude 
that the thalamic circuitry that's in place by 18 weeks post 
fertilization is primarily responsible for human experience of 
pain at all stages of life.
    Given that fetuses are members of the human species, human 
beings like us, they deserve the benefit of the doubt regarding 
their experience of pain and protection from cruelty under the 
law.
    Thank you very much.
    [The prepared statement of Ms. Condic follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________
    Mr. Franks. Thank you, Dr. Condic.
    And Ms. Zink, we will now recognize you for 5 minutes. 
Thank you for being here.

           TESTIMONY OF CHRISTY ZINK, WASHINGTON, DC

    Ms. Zink. Good morning, Mr. Chairman, Representative 
Nadler, and other Members of the Committee.
    My name is Christy Zink. Late afternoons in May, my family 
is on the lookout for monarch butterflies. It's spring 
migration time, and the butterflies have winged their way from 
Mexico through Texas, moving now up through the country.
    My daughter learns, as we all do, by sharing the stories of 
what she knows. Monarchs identify food with their feet, she 
tells me. They sip nectar through a proboscis, a word we work 
together to spell out on paper.
    In our yard, as we spy out for the monarchs, her brother 
keeps his own watch. A toddler, he names what he sees in quick 
bursts. Grass. Truck. Tree.
    For me, it's as if I'm learning along with him, trying out 
those words anew. My family teaches me every day, and I hold 
dear the privilege it is to raise my children and to be student 
to their wonder.
    All families know this delight in their own way. There are 
families like mine who understand that joy in more complicated 
ways, earned through hard lessons and harder decisions. I'm 
here today to share my story with you so that you can 
understand why this bill that purports to prevent pain is 
instead harmful to families and to women in situations like the 
one I faced, and why all women in this country need access to 
safe, quality medical care.
    In addition to the pregnancies with my two children, I was 
also pregnant in 2009. I wondered who my child might grow up to 
be. Would she inherit her father's love of the pitchers' duel 
in baseball? Would he make a habit of skipping to the last page 
of a book, peeking at the end as I do?
    I looked forward to the ultrasound when we would get a 
chance to have a look at the baby in utero to learn a little 
bit more. I certainly hadn't imagined that we'd learn terrible 
news and that after the doctor's visit, my husband and I would 
have to make the most difficult decision of our lives.
    I took extra special care of myself during that pregnancy. 
I received excellent prenatal attention from an award-winning 
obstetrician. Previous testing had shown a baby growing on 
target with the limbs and organs all in working order.
    However, when I was 21 weeks pregnant, an MRI revealed that 
our baby was missing the central connecting structure of the 
two parts of his brain. A specialist diagnosed the baby with 
agenesis of the corpus callosum. What allows the brain to 
function as a whole was simply absent.
    But that wasn't all. Part of the baby's brain had failed to 
develop. Where the typical human brain presents a lovely 
rounded symmetry, our baby had small globular splotches. In 
effect, our baby was also missing one side of his brain.
    Living in a major city with one of the best children's 
hospitals in the country, my husband and I had access to some 
of the best radiologists, neurologists, and geneticists not 
just in this city or in the country, but in the world. We asked 
every question we could. The answers were far from easy to 
hear, but they were clear.
    There would be no miracle cure. His body had no capacity to 
repair this anomaly, and medical science could not solve this 
tragic situation. This condition could not have been detected 
earlier in my pregnancy. Only the brain scan could have found 
it.
    The prognosis was unbearable. No one could look at those 
MRI images and not know instantly that something was terribly 
wrong. If the baby survived the pregnancy, which was not 
certain, his condition would require surgeries to remove more 
of what little brain matter he had, to diminish what would 
otherwise be a state of near constant seizures.
    I am here today to speak out against the so-called Pain-
Capable Unborn Child Protection Act. Its very premise that it 
prevents pain is a lie.
    If this bill had been passed before my pregnancy, I would 
have had to carry to term and give birth to a baby whom the 
doctors concurred had no chance of a life and who would have 
experienced near constant pain. If he had survived the 
pregnancy, which was not certain, he might never have left the 
hospital. My daughter's life, too, would have been irrevocably 
hurt by an almost always absent parent.
    The decision I made to have an abortion at almost 22 weeks 
was made out of love and to spare my son's pain and suffering. 
I'm horrified to think that the doctors who compassionately, 
but objectively explained to us the prognosis and our options 
for medical treatment and the doctor who helped us terminate 
the pregnancy would be prosecuted as criminals under this law 
for providing basic, safe medical care and expertise.
    This bill does not represent the best interests of anyone, 
especially families like mine. What happened to me during 
pregnancy can happen to any woman regardless of her health, 
race, ethnicity, economic status, or where she lives. The 
proposed law is downright cruel, as it would inflict pain on 
the families, the women, and the babies it purports to protect.
    It's in honor of my son that I'm here today speaking on his 
behalf. I'm also fighting for women like me to have the right 
to access safe, legal, high-quality abortion care when we need 
to beyond 20 weeks, especially for those women who could never 
imagine they'd have to make this choice.
    Women across this country need to be able to make this very 
private decision with their partners, their doctors, and 
trusted counselors. I urge you not to pass this harmful 
legislation.
    [The prepared statement of Ms. Zink follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________

    Mr. Franks. Thank you, Ms. Zink.
    And I would now recognize Ms. Stanek, and Ms. Stanek, thank 
you for being here. Ms. Stanek?

          TESTIMONY OF JILL L. STANEK, RN, MOKENA, IL

    Ms. Stanek. Thank you. Thank you for having me.
    When I testified before this Committee in 2000 and 2001, it 
was to tell of my experience as a registered nurse in the labor 
and delivery department at Christ Hospital in Oak Lawn, 
Illinois, where I discovered babies were being aborted alive 
and shelved to die in the hospital's soiled utility room.
    Among other familiar faces that I see here today is 
Congressman Nadler, who was a Member of the Committee at that 
time, as he indicated earlier, and he said that he was appalled 
by the incidents I described and found them heart wrenching. 
Indeed, I was traumatized and changed forever by my experience 
of holding a little abortion survivor for 45 minutes until he 
died, a 21- to 22-week-old baby who had been aborted because he 
had Down syndrome.
    Since then, other appalling stories of abortion survivors 
either being abandoned or outright killed have been trickling 
out. The Kermit Gosnell case provides further evidence that the 
lines between illegal infanticide and legal feticide, both via 
abortion, have become blurred.
    This abortionist was convicted only last week of three 
counts of first-degree murder in the deaths of three born 
babies whose spinal cords we all know were snipped, as he 
called them. Also last week came the revelation and photos from 
three former employees who allege that Houston abortionist 
Douglas Karpen routinely kills babies after they are born by 
puncturing the soft spot on their head or impaling the stomach 
with a sharp instrument, twisting the head off or puncturing 
the throat with his finger.
    It is easy to be horrified by heart-wrenching stories such 
as this and to imagine the torture that abortion survivors 
endure as they are being killed. But it is somehow not so easy 
to envision preborn babies the same age being tortured as they 
are killed by similar methods.
    Today, premature babies are routinely given pain relief, 
who are born at the same age as babies who are torn limb from 
limb or injected in the heart during abortions. The World 
Health Organization goes so far as to recommend pain relief for 
preemies getting a simple heel stick to draw a couple of drops 
of blood.
    Likewise, prenatal surgery is becoming commonplace, and 
along with it, anesthesia for babies being operated on, even in 
``the middle of pregnancy'' as the Cincinnati Children's 
Hospital says. Meanwhile, babies of an identical age are torn 
apart during abortions with no pain relief.
    It must be that some people inexplicably think that the 
abortion provides a firewall against fetal pain or that babies 
marked for abortion are somehow numb while their wanted 
counterparts aren't. This thinking is better suited for the 
Middle Ages than for modern medicine.
    Yet while NARAL Pro-Choice America eventually expressed 
neutrality on the Born-Alive Infants Protection Act, which 
provides legal protection for born babies no matter what 
gestational age and no matter if wanted or not, NARAL opposes 
legislation protecting babies of the same age from barbaric 
abortions after the point they are known to feel pain.
    Abortion proponents attempt to say that abortionists who 
commit abortions past 20 weeks are rare. This is a myth. The 
National Right to Life Committee, perusing a report from 
Guttmacher Institute, which is a research arm of the abortion 
industry, in 2008 found that at least 300 abortion providers 
across the U.S. perform abortions after 18 weeks post 
fertilization, and then at least 140 abortionists commit 
abortions on pain-capable children at 20 weeks post 
fertilization.
    As for the number of late-term abortions committed in this 
country, nobody knows. There are no standardized mandatory 
Nationwide abortion reporting requirements, and some of the 
most liberal jurisdictions, such as California, Maryland, and 
D.C., don't report at all. And it is questionable that 
abortionists even comply with regulations and, as we know by 
Gosnell, that enforcement agencies enforce these reporting.
    For instance, when the Elkton, Maryland, office of 
abortionist Steven Brigham was raided in 2010, investigators 
found 35 fetuses in his freezer. But there were no medical 
records documenting 33 of those abortions, much less reporting.
    The Gosnell grand jury report said that between 2000 and 
2010, Gosnell reported only 1 second trimester abortion when we 
know that he probably committed thousands of late-term 
abortions during that decade. No one knows how many abortions 
are committed after 20 weeks. So it is false for anyone to 
claim that they are rare.
    It is also a myth that late abortions are mostly committed 
on babies with handicaps, although being handicapped is 
certainly no excuse for torture. Dr. Leroy Carhart, who commits 
abortions in Germantown, Maryland, just 30 miles from here, was 
caught on tape by Live Action stating he routinely commits 
elective abortions at 26 weeks.
    ``Saw four this week,'' Carhart quipped to the Live Action 
pregnant investigator, also joking that he uses a pickaxe and a 
drill bit to kill older babies.
    Only two blocks from the White House, late-term abortionist 
Cesare Santangelo told a pregnant Live Action investigator he 
would kill her healthy 24-week-old preborn baby by snipping the 
umbilical cord, which is the equivalent of cutting the hose off 
of a scuba diver, causing death by slow asphyxiation. His Web 
site states that he will commit dilatation and evacuation 
abortions up to 26 weeks.
    Having actually held a little abortion survivor, I cannot 
imagine standing there in the soiled utility room and tearing 
him apart to hurry up his killing. I expect that that thought 
horrifies everybody here. But this is what is done to others 
just like him on a daily basis, their excruciating fate 
determined simply by geography.
    Our Nation makes progress when we put an end to senseless 
disparate treatment of anyone, and certainly the most 
vulnerable in our midst. It is time we apply this standard to 
preborn babies, such as what I have described.
    Thank you.
    [The prepared statement of Ms. Stanek follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________
    Mr. Franks. Thank you, Ms. Stanek.
    Thank you all for your testimony.
    We will now proceed under the 5-minute rule with questions, 
and I will begin by recognizing Mr. Chabot from Ohio for 5 
minutes.
    Mr. Chabot. Thank you, Mr. Chairman. I appreciate you 
calling me out of order.
    Before I ask a question, I would like to recognize Ms. 
Stanek. She has been in this fight for a long time. We met many 
years ago.
    And as a result of your courage to come forward and be 
willing to take the criticism from some people that you 
revealed what was going on in these abortion chambers, babies 
that you knew that survived an abortion, and there were 
instances where they were found in a utility closet, in a 
garbage can, and a whole bunch of other types of things. 
Because of your willingness to come forward, there are at least 
two pieces of major legislation that were passed and are now 
the law of the land.
    One is the Born-Alive Infant Protection Act to protect 
those babies that are born when an abortion was intended, but a 
live baby was the result. And then also the ban on partial-
birth abortion. Both of those landmark pieces of legislation, 
you were absolutely responsible for those things taking place. 
So thank you for your work.
    Now a question. If I could go to you, Dr. Levatino? Ms. 
Zink related her tragic story, and I think we certainly all 
sympathize with the situation that she faced. She made her 
choice.
    Now you were an abortion doctor for a number of years and, 
I think you indicated, performed 1,200 abortions altogether. 
And some of those--those were the total number of abortions 
including late-term abortions, or were they just late-term 
abortions?
    Dr. Levatino. Those were total number of abortions I 
performed in private practice. I performed several hundred more 
in training.
    Mr. Chabot. Okay. So my question is, of those--and I know 
you have changed your position 180 degrees since then, and I 
respect you greatly for doing that. But in those abortions that 
you performed, how many of those abortions would you estimate 
were cases where you had a baby which faced a severe health 
problem and maybe a matter of life and death versus babies 
which would have been born healthy, perhaps lived 70, 80 years, 
had children and grandchildren themselves, experienced the same 
experiences that all the people in this room have, that would 
have experienced the life that we have?
    How many of those that faced the tragic things that Ms. 
Zink faced versus probably a healthy existence that we all 
have? What would be your estimate of that?
    Dr. Levatino. I think I can estimate that very well, 
Congressman. My partners and I did very thorough histories on 
all of our patients who came in for abortions. We weren't 
running an abortion mill. This was a routine obstetrics and 
gynecology practice.
    We did OB. We did GYN. We did abortions. We did deliveries. 
We had no financial incentive to push a patient one way or the 
other. If she wished to have an abortion, we could take care of 
her. If she wished to deliver her child, we could take care of 
her.
    Of the 1,200 abortions that I performed, 2 were cases of 
rape or incest. Of the other 1,200, approximately a dozen were 
for fetal malformations. The rest were elective.
    Mr. Chabot. So the vast majority of the babies would have 
been healthy and probably led a productive life?
    Dr. Levatino. The vast majority, yes, sir.
    Mr. Chabot. And had children themselves and grandchildren 
themselves someday?
    Dr. Levatino. Probably so.
    Mr. Chabot. And I am not trying to make the pain that you 
went through any harsher here, but the reality is most of these 
babies--we talk about the exceptional cases here like Ms. 
Zink's, but in the vast majority of the cases, we are talking 
about ending the lives, the existence of human beings just like 
ourselves.
    My next question. You had mentioned--well, let me ask you 
this, and I had asked you this question in a previous hearing. 
What was it that made you change your point of view on this?
    Dr. Levatino. I was very pro choice through medical school 
and my training, and I guess I proved that by doing abortions 
in my private practice. In 1984, I lost a child of my own to an 
auto accident and through that experience looked very hard at 
what I was doing as an abortionist. And it became quite 
intolerable, and I stopped.
    Mr. Chabot. Thank you.
    And finally, you mentioned what a brutal procedure this is 
and the nature of it, arms and legs, et cetera. But there has 
also been this idea that a war on women, which I think is 
repugnant that people would say that. But is there not a danger 
to the women themselves that are going through these procedures 
when you are reaching in?
    I mean, you mentioned the uterus, for example. You have to 
be careful you don't perforate the uterus. So is there a danger 
to the woman that undergoes one of these procedures?
    Dr. Levatino. There is always a risk. There is a risk with 
child birth. There is a risk with abortion. There is a risk 
with every medical procedure. There is a risk of infection. 
There is a risk of perforation of the uterus. There is a risk 
of death. There is a risk of hemorrhage.
    In my career, I had the unpleasant experience during one of 
these abortions, as I said, when you're reaching in with--
rather, a stainless steel instrument and reaching in, I had the 
experience of reaching in and pulling, and instead of getting a 
limb, I got the lady's intestines.
    Just complications do occur.
    Mr. Chabot. Thank you, Doctor.
    Dr. Levatino. Thank you.
    Mr. Chabot. Thank you. I yield back.
    Mr. Franks. And I thank the gentleman.
    And I recognize the Ranking Member, Mr. Nadler, for 5 
minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    When Congress passed the Born-Alive Infants Protection Act, 
which I supported, which makes killing any infant born alive 
illegal--although it was illegal to start with, obviously--
Congress was very clear that we were not imposing any new duty 
on neonatologists to intervene, especially if the live birth 
was at a stage where survivability was seriously in doubt.
    Given the testimony today, I am concerned that some members 
of this panel would want to impose such a duty even at a very 
early stage of development, say, 20 weeks. Do you take this 
position, and if so, what should be the dimensions of that 
duty, Dr. Levatino?
    Dr. Levatino. If a child is born alive, that child is a 
person under the law and has rights. One of those rights is to 
proper medical care, period.
    Mr. Nadler. But that is a preexisting medical--I am sorry. 
It is a preexisting legal obligation. So you would not agree 
that the born-alive bill established new neonatology 
requirements that didn't already exist in law?
    Dr. Levatino. I would agree that it didn't establish 
anything that wasn't already present in law. Unfortunately, it 
seems that too many physicians, Dr. Gosnell among them, would 
choose to ignore that.
    Mr. Nadler. Well, Dr. Gosnell was convicted of murder.
    Dr. Levatino. Too many children, in fact, are being born 
outside of facilities where they can't even get the care that 
they are entitled to as citizens.
    Mr. Nadler. Okay. Ms. Zink, first of all, I want to thank 
you for agreeing to testify today. As a parent, your story was 
very difficult to listen to, and I can't even begin to imagine 
how difficult it must have been to live through it, much less 
to come here and describe your experience to people.
    So I want to thank you for your willingness to put a human 
face on this question and for your courage in being here.
    One of the really harmful consequences of this bill, in my 
opinion, is that there are some fetal conditions that cannot be 
diagnosed before the 20th week of pregnancy. In those 
situations, the tragedy of learning that there is, for example, 
a fetal anomaly that is incompatible with life is compounded by 
the fact that this bill would make it impossible to receive 
abortion care if that is the medically indicated treatment.
    In fact, isn't it correct that the diagnosis in your case 
could not have been made before the 20th week?
    Ms. Zink. That's correct.
    Mr. Nadler. If this bill had been law when you had to face 
your ordeal, your doctors would have had to risk jail and a 
lawsuit if they provided you with the medical services you 
required. Could you comment on that?
    Ms. Zink. I think that one of the things that I want to say 
is that through all of the presentations about experience, my 
experience is not reflected in any of that. We got excellent 
medical care. It was connected. All of the doctors were 
speaking to each other. We got care before and during and 
after, and excellent medical, safe care.
    And I think that that sort of notion of not having access 
to that and to know that doctors who are looking at their 
medical knowledge, looking at each individual case, talking to 
women, talking to families in the way that doctors and patients 
should be talking to each other about what the prognosis is, 
what the steps are, what the range of options are, to cut that 
off I think is horrible.
    Mr. Nadler. So you think that your liberty, along with your 
husband, in consultation with your doctor to do what was best 
for your family would have been precluded by this bill?
    Ms. Zink. Absolutely.
    Mr. Nadler. Thank you. Thank you, Ms. Zink.
    We received a letter today, which I ask be placed in the 
record at this point, from the American Congress of 
Obstetricians and Gynecologists, the American Medical Women's 
Association, the American Nurses Association, the American 
Society for Reproductive Medicine, the Association of 
Reproductive Health Professionals, Medical Students for Choice, 
the National Association of Nurse Practitioners in Women's 
Health, the National Family Planning and Reproductive Health 
Association, Physicians Reproductive Health, and Planned 
Parenthood of America.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                               __________

    Mr. Nadler. The letter makes several points. One, that 
fetal viability is generally regarded as occurring at 24 weeks 
gestation using LMP, last menstrual period, and that this bill, 
by counting from fertilization, falsely implies high survival 
rates among neonates.
    Two, that the generally held view in the profession is that 
fetal pain does not occur prior to the third trimester, a view 
found in a widely cited Journal of the American Medical 
Association study and a review by the Royal College of 
Obstetricians and Gynecologists.
    Three, that severe and lethal anomalies, such as the 
absence of the brain and cranium above the base of the skull, 
the failure of the kidneys to form, organs growing outside the 
body cavity, severe heart defects, and neural tube defects, 
often are not diagnosed before 20 weeks.
    In light of this, let me ask Dr. Levatino, do you believe 
it should be a crime to perform an abortion post 20 weeks in 
these cases of severe and lethal fetal anomalies? And what 
would you say to Ms. Zink about her tragic situation?
    Dr. Levatino. Ms. Zink lost a child, just as I do. And as I 
told her a year ago, I'm sorry for your loss.
    As far as the vast, vast, vast majority of those anomalies 
are diagnosed prior to this time. Twenty weeks from post 
fertilization is 22 weeks from last menstrual period. The vast 
majority, and I would point out even Ms. Zink's baby, was 
diagnosed prior to that time.
    It's rare at this point--there are a few cases where they 
will get diagnosed after that time. But the vast majority, you 
have mentioned a few in that letter, like anencephaly, easily 
seen on an ultrasound at 16 weeks, which is almost routinely 
performed.
    Mr. Nadler. Excuse me. But the letter that we have from all 
these journals or organizations says that many of these things 
are not--are often not diagnosed before 20 weeks. You are 
saying they are incorrect?
    Dr. Levatino. Rare, Congressman. Rare.
    Mr. Nadler. It says often.
    Dr. Levatino. That's what they say. In my experience, rare. 
And I dealt with preemies all the time.
    Mr. Nadler. And what about those rare cases?
    Dr. Levatino. Rare cases you take on a case-by-case basis.
    Mr. Nadler. No, but should we make it illegal to perform an 
abortion after 20 weeks in those rare cases of anencephaly, 
failure of kidneys to form, severe heart defects, neural tube 
defects, and so forth, if they are discovered, let us say, in 
the 21st week?
    Dr. Levatino. Yes.
    Mr. Nadler. And that is a moral judgment on your part, 
obviously----
    Dr. Levatino. Yes.
    Mr. Nadler [continuing]. Which others may disagree with?
    Dr. Levatino. Yes.
    Mr. Nadler. Thank you.
    I see my time is expired.
    Mr. Franks. I thank the gentleman.
    And I will now recognize myself for 5 minutes.
    You know, over the years, if one has worked in this area a 
long time, you become used to people saying, well, you know you 
are just focused on the wrong thing or somehow you should be 
focusing on more important things. But Dr. Martin Luther King 
said something that occurs to me in a very profound way. He 
said our lives begin to end the day we become silent about 
things that really matter.
    And I would just suggest to those in the audience, those 
here on the panel that there are some of us that believe this 
really matters because whatever else happens during a late-term 
abortion, whatever else happens, a child dies a lonely and 
often painful death. The mother is never the same and is often, 
no matter the circumstances, left with great loss and emotional 
heartache. And whatever gifts that child might have brought to 
humanity are, of course, lost forever.
    And it just occurs to me that if we don't have the courage 
or the will to protect the most innocent among us, then I 
wonder if we will ever have the will or the courage as a people 
to protect any kind of liberty for anyone. I wonder where we go 
as a human family.
    And with that, Dr. Levatino, I heard a lot of witnesses, 
and I find your testimony to be so incredibly compelling. And I 
find myself always wanting to just express a sense of 
condolence for your loss. But I think your little girl would be 
very, very proud of you.
    Recently, three former clinic employees have come forward 
with allegations against an abortionist in Houston, Texas. One 
former employee, speaking out about late abortions, reportedly 
alleged that, ``Most of the time, the fetus would come all the 
way out before he either cut the spinal cord or introduced one 
of the instruments into the soft spot of the fetus in order to 
kill the fetus.''
    She said, ``Either that or twisting the head off the neck 
with his own bare hands.'' She alleged that most of the time, 
``We would see the fetus come all the way out, and of course, 
the fetus was still alive.'' And allegedly, according to the 
news report, ``The abortionist also suffocated babies by 
putting his finger down the windpipes.''
    Now I'm going to ask for a couple of photos to be shown, 
reluctantly. To be put on the plasma screens. And they are 
exceedingly gruesome. So I would want to give fair warning to 
those who might want to look away, and we would give you a few 
moments to do that.
    All right. Now, Dr. Levatino, directing your attention to 
the two photos on the screen that were allegedly taken at the 
abortionist's clinic I spoke of in Houston, Texas, in your 
estimation, how old would you say that this baby--there is two 
pictures there. How old would you say that this baby is?
    Dr. Levatino. It's always difficult to estimate gestational 
age just based on a photograph, but comparing to an adult's 
hand, I would estimate that child between 24 and 28 weeks of 
gestation from last menstrual period.
    Mr. Franks. Now if a healthy baby, otherwise healthy, were 
born alive at that age, what would be his or her chances of 
long-term survival?
    Dr. Levatino. The majority would survive.
    Mr. Franks. Now looking at the second paragraph--excuse me, 
the second photograph.
    [Pause.]
    Mr. Franks. They may be looking at the wrong one, but there 
is a thumb that is inserted in the gash in the baby's neck, and 
it was the previous one. What might cause a gash like that?
    Dr. Levatino. A gash in the base of a baby's neck is not a 
birth injury. There is no condition or no condition of delivery 
that I am aware of that could possibly cause such an injury. I 
have seen those photographs.
    Mr. Franks. And the nature of this would tell you----
    Dr. Levatino. The injury would have to be traumatic and 
induced and performed on this child after that child was born.
    Mr. Franks. And so, it would be made outside the womb 
rather than inside the womb?
    Dr. Levatino. Correct.
    Mr. Franks. Now whether the baby was inside or outside, 
would it have been painful to the baby, assuming the baby was 
born alive?
    Dr. Levatino. Yes.
    Mr. Franks. Thank you, Dr. Levatino.
    Dr. Condic, I know it is difficult, but do you have any 
observations?
    Ms. Condic. No, I am not a physician. I'm a scientist. 
That's why I really can't comment on those photographs in a 
professional capacity. But certainly, as a woman and as a 
mother, it's horrifying that a child would be treated in this 
manner.
    Mr. Franks. Dr. Levatino, did you have a further point?
    Dr. Levatino. No, sir.
    Mr. Franks. Okay, all right. When we look at these things, 
I know they are hard. But one thing they do do is they put out 
of reach any claim that we didn't know. And now that we have 
seen those, the question occurs as to whether or not we will 
come to the rescue of these children and find our humanity and 
hope for better days for America, or we will allow ourselves to 
slide into that Sumerian darkness where the light of compassion 
has gone out and the survival of the fittest is prevailed over 
humanity.
    And it is an important question. And so, with that, I would 
now yield to Mr. Conyers for 5 minutes for questions.
    Mr. Conyers. Thank you very much, Mr. Chairman.
    This has been a painful and uncomfortable discussion here 
today for me personally, and I know that Ms. Zink has probably 
been as well. And I wanted to ask you, Ms. Zink, is there 
anything that you would like to add to this discussion, since 
not an awful lot of questions have been directed to you, about 
the issues that bring us here today in the Judiciary 
Subcommittee?
    If you do, I would welcome hearing from you at this time.
    Ms. Zink. I just think it's worth it to add that this is 
not a hypothetical situation. This is not a philosophical 
discussion. This affects real women, real families, real lives, 
and even if our--if my situation is rare, there are many women 
that it has affected already and who have gone through this.
    And there are many women, unfortunately, it's a community 
that grows every day of people who face these really awful 
decisions. But it's something that has to be a private decision 
to trust the doctors and their knowledge, to work with their 
counsel, to talk to our families, and to talk to our 
counselors.
    And that that's the reality of how all of this works at a 
very human level.
    Mr. Conyers. Thank you for giving us this viewpoint. It is 
important for the record.
    Dr. Levatino, might I ask you, sir, if you believe children 
are entitled to healthcare once they are born? I presume that 
you do.
    Dr. Levatino. Yes, sir.
    Mr. Conyers. We all know that the Affordable Care Act 
protects women and children to ensure that they have the kind 
of care that you alluded to. Do you have any feelings or 
viewpoint about the Affordable Healthcare Act?
    Dr. Levatino. The Affordable Healthcare Act, with respect, 
I don't think is actually all that relevant to today's 
discussion. Like most physicians in this country, I guess I 
have a lot of feelings about the Affordable Healthcare Act, 
sir.
    Mr. Conyers. Sure. You are not in support of it?
    Dr. Levatino. I'm not sure. It's such a broad topic. Are 
you asking about something specifically?
    Mr. Conyers. Well, yes. Specifically, since we have voted 
on it 37 times in the Congress, I am interested in your view. 
Not anything in specific. There are probably a lot of things we 
could go into, but not in 5 minutes.
    Can you just--well, let me put it like this, Doctor, and I 
want to be fair to you. Could you just say you don't like it?
    Dr. Levatino. No, I couldn't say that at all.
    Mr. Conyers. Could you say that you do like it?
    Dr. Levatino. No, I couldn't say that either.
    Mr. Conyers. Well, what----
    Dr. Levatino. The Affordable Care Act, I think, is an 
effort to try to correct a lot of the problems we have with 
medical care in our country. There are a lot of things about 
the Affordable Care Act that I think are just fine. We're going 
to provide insurance for people who had difficulty getting 
insurance. We're going to----
    Mr. Conyers. So you like parts of it, and you don't like 
other parts.
    Dr. Levatino. We're going to take away the horrible 
situation where--or the difficult situation----
    Mr. Conyers. Okay.
    Dr. Levatino [continuing]. Where people change jobs and 
lose their insurance.
    Mr. Conyers. All right.
    Dr. Levatino. On the other hand, we are depending on young 
people----
    Mr. Conyers. Pardon me, sir.
    Dr. Levatino [continuing]. To float the system and are just 
not going to do it.
    Mr. Conyers. I see you are a pretty professional witness, 
but just let me--I got the yellow light, and I don't want to 
cut you off. But how do you think we should pay for the kind of 
care necessary for expectant mothers at 20 weeks or 24 weeks?
    Dr. Levatino. I'm not sure I understand your question, 
Congressman.
    Mr. Conyers. If a fetus is born at 20 weeks, do we have an 
obligation to provide the necessary medical care to that 
mother?
    Dr. Levatino. Yes.
    Mr. Franks. The gentleman's time has expired.
    Mr. Conyers. Well, that is some progress, and I thank you, 
Doctor, for your responses.
    Dr. Levatino. Thank you, Congressman.
    Mr. Conyers. And thank you, Mr. Chairman.
    Mr. Franks. The Chair now recognizes Mr. King for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses for your testimony today. As I listen 
I can't help but reflect upon stepping into the office of one 
of my district employees who happens to also be a State 
senator. As I sat down and borrowed his telephone, I looked up 
at the shelf, and there was a framed picture of the 4-D 
ultrasound of my godson.
    And I would ask--I think I would ask Dr. Condic do you have 
any--what is your opinion as to the availability of that 
technology and how it might have moved hearts and minds?
    Ms. Condic. I think the 4-D ultrasound is a very powerful 
way of looking inside a situation that has been a black box in 
the past, and I think we are very visual creatures. Humans 
react to things they can see.
    And a lot of the emotional disposition of people in the 
abortion debate has centered on the fact that we can't really 
see that baby, and everything that's happening, as Dr. Levatino 
so graphically described, is happening in the dark. So being 
able to open the womb, to a picture of a baby that's moving, 
that you can recognize as a baby I think has a strong emotional 
effect because it allows people to see what's really there. 
Not--not some mass of tissue or blob of cells, but----
    Mr. King. It is curious that we call it a 4-D ultrasound, 
but yet we can't hear the sound of the baby.
    Ms. Condic. By four dimensions, they mean you see three 
dimensionally. So you see the baby as not as a flat image, but 
as a projection in space. And then the fourth dimension is 
time. So you can see the baby moving.
    Mr. King. Well, let us explore that other dimension of 
sound, and it occurs to me that people are emotionally 
sensitive to sound. And I just was thinking this through. I 
know people that don't eat any red meat, and part of the reason 
is they can hear in their mind's ear the sound of that animal 
that is being harvested for our consumption.
    So they don't eat beef. They don't eat pork. They say I 
don't eat red meat. But they might eat chicken or duck probably 
because the sound of a chicken or duck doesn't trouble them as 
much. I have heard them say that. And then some will not eat 
poultry, but they will eat fish because fish can't scream for 
their own mercy.
    And so, I go on down the line to the vegan side of it, no 
animal products and only vegetables, and it occurs to me that 
those that have a dietary preference, that is fine. Those that 
have a political position, I guess that is fine. But some of 
them, they can't abide the sound of the processing of that 
animal in their mind's ear.
    And I recall sitting in this Committee during the partial-
birth abortion debates that we had, and the description of the 
partial-birth abortion about babies being delivered to just 
right an inch before they could fill their lungs with free air 
and scream for their own mercy.
    And it strikes me that that sound is in the mind's ear of 
the jury of Dr. Gosnell, and it is now in the mind's ear of the 
people in this country that are deliberating on this. And I 
would wonder, Doctor, if you would comment on that?
    Ms. Condic. I think anything that allows people to more 
realistically understand what a fetus really is and what it's 
really capable of--its experiences, its reactions, its 
emotions--is a movement toward honesty. And I would fully 
support it.
    Mr. King. Thank you.
    Ms. Stanek, you said that the excruciating fate of the 
child is determined simply by geography, and I didn't hear your 
testimony expand on that. Could you expand on that thought a 
little for us, please?
    Ms. Stanek. Yes, the baby that I held who was between 21 
and 22 weeks old was about the size of my hand, and he didn't 
move very much because he was just attempting to survive by 
breathing. And after he was pronounced dead, you know, took him 
to the morgue, where we take all our other dead patients.
    And that same age baby, who I held, an abortion survivor, 
is aborted today, going on right now, limb from limb, drawn and 
quartered, as Dr. Levatino described. And whereas, we give pain 
relief to born babies that same age, it is well known, in utero 
when they are being operated on and after they are born, we 
don't seem to give any care or regard to these same babies if 
they are not wanted, if the moms want to terminate their 
pregnancies.
    Mr. King. So that is determined by the prospect of their 
survival, as well as their geography?
    Ms. Stanek. It's--I'm sorry. What was that?
    Mr. King. By the prospect of their survival? If the child 
is receiving surgery in order to save this child----
    Ms. Stanek. Right.
    Mr. King [continuing]. As opposed to an operation to kill 
the child?
    Ms. Stanek. Right, right.
    Mr. King. So the prospects of survival.
    And then if I could just quickly turn to Dr. Levatino, and 
I would ask this opinion. I heard the gentleman from Michigan, 
Mr. Conyers, say that this was a painful and uncomfortable 
experience here. Could you compare that painful and 
uncomfortable experience here to the one that a child goes 
through?
    Dr. Levatino. I have done this my entire professional life. 
I've dealt with preemies down to this size and even smaller. 
Well, certainly down to this size. And I've done the abortions 
firsthand.
    I am dismayed sometimes at particularly the American 
College of Obstetricians and Gynecologists. I was a fellow in 
that organization for over 20 years. I held a leadership post 
at one point. And I withdrew my membership several years ago 
because of some of--despite all the good things that the 
organization does, and there are many, the frankly what I saw 
as the obvious political stance they took on this issue.
    And it bothers me when they talk about, oh, fetuses don't 
feel any pain at all until they're viable. Isn't that amazing? 
It just suddenly switches on when they're viable.
    And if anybody thinks that ripping off arms and legs and 
crushing these children the way we do during these procedures 
isn't painful, they are just kidding themselves. They are badly 
kidding themselves.
    And when you look at those pictures of that, this 
abortionist now in Houston, I hope he will be properly 
investigated and possibly prosecuted. These children almost had 
their heads torn off. And if you don't think that's painful.
    I have been sitting here ruminating a little bit about the 
letter that was read. Very interesting, you know? Children with 
renal agenesis are not entitled to a chance at life? Children 
with Down syndrome are not entitled to a chance to life? 
Children with different types of brain injuries are not even 
entitled to a chance to live? Is that what we're championing 
here?
    Mr. King. Thank you, Doctor.
    I thank all the witnesses, and I yield back the balance of 
my time, Mr. Chairman.
    Mr. Franks. Thank you, Mr. King.
    I am reminded that I had a brother who had Down syndrome 
that was given the chance to live for almost 40 years, and we 
are very grateful.
    The gentleman from Texas, Mr. Gohmert, is recognized for 5 
minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    I have a first cousin whose mother and our whole family is 
glad that he was--that she carried him and has taken care of 
him. And anyway, it raises difficult issues, and having had a 
preemie for our first child, we weren't sure what we were 
getting. We felt like, apparently, it was going to be a girl. 
But she came so early, this was a very difficult time in our 
lives.
    And Ms. Zink, you have my great sympathy. But having had a 
child who was premature and having sat there, we had an 
incredible neonatologist in Shreveport, Dr. Tsing, T-s-i-n-g, 
and I haven't seen him since then. But he had such a love for 
the children, and when we were told we could go either to 
Dallas or Shreveport, I asked about the survivability, and he 
said we seem to have more children live in Shreveport, for 
whatever reason.
    My wife and I had talked about it. Well, let us go to 
Shreveport, anything we could do for our child, because they 
were losing her.
    And as you know, among preemies, blindness can be an issue 
if you expose to 100 percent oxygen or too much oxygen too 
quickly because of the blood vessels. The dilation causes the 
separation or the little fingers that come out that separate it 
from the retina. And I knew when they went from 20 to 40 to 60 
to 80 percent oxygen very quickly that they were--they knew our 
baby was in big trouble.
    But Dr. Tsing said it is so important that the baby hear 
your voice. Please talk to your baby. Here is a stool beside 
the isolette, and caress her, talk to her. She--her eyes don't 
work very well. She won't recognize you, but she will know your 
voice because she has heard you in utero.
    And as you would know, the lungs are about the last to 
develop. They have trouble breathing. Breathing is so shallow 
and so rapid, and the heart rate so erratic.
    But I would, as my wife had said, go do anything you can 
for our baby. They said you can sit for 2 hours, and so I sat. 
And he said caress her, talk to her, and as I did, the little 
bitty fingers grasped around the end of my finger, and I sat 
there for an hour or so.
    Dr. Tsing came by and said, ``Have you noticed the 
monitors?'' Breathing still very shallow, heartbeat fast, but 
they had stabilized and not become so erratic. And Dr. Tsing 
said, ``She is drawing strength, she is drawing life from 
you.''
    Well, with that, I couldn't leave. And after 8 hours, they 
told me I had to take a break. I couldn't keep sitting there. 
But I'm helping my child. How could I leave?
    But when I read and hear of your account, Doctor, of how a 
child like mine would have the Sopher clamp placed on a leg and 
then ripped from the body, grab an arm and ripped from the 
body, and I think about our little Katie, hanging on to my 
finger for dear life, it is pretty difficult as well.
    Being there in an advanced neonatal ICU, I did see there 
was one child that was born that was missing parts, including a 
spine. And the parents ended up--when it was very clear there 
was no brain activity whatsoever, there was nothing--there were 
decisions that they had to make at that point.
    Ms. Zink, having my great sympathy and empathy both, I 
still come back wondering, shouldn't we wait like that couple 
did and see if the child can survive before we decide to rip 
them apart? So these are ethical issues. They are moral issues. 
They are difficult issues.
    And the parents should certainly be consulted. But it just 
seems like it is a more educated decision if the child is in 
front of you to make those decisions. So I appreciate all that 
each of you bring.
    Ms. Stanek, I have known and loved you before I ever saw 
your picture, and I just read the account of what I knew you 
endured. But thank each of you for being here. Thank you for 
the input that each of you bring to this difficult issue.
    Thank you, Mr. Chairman.
    Mr. Franks. ``This is our first task, caring for our 
children. It is our first job. If we don't get that right, we 
don't get anything right. That is how as a society we will be 
judged.
    ``Are we really prepared to say that we are powerless in 
the face of such carnage, that the politics are too hard? Are 
we prepared to say that such violence visited on our children 
year after year after year is somehow the price of freedom?''
    I pray that we would all heed the words of our President, 
and with that, this meeting is adjourned.
    [Whereupon, at 12:11 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
